                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                    CLOSEOUT MEMORANDUM

  Case Number: A09030015                                                                                   Page 1 of 1



          OIG received an allegation' that a PI2 on an award3 had left the Institution4 to pursue a career in
          the arts. Despite the PI's departure, the institution had continued to draw down funds on the
          award. OIG determined that NSF ,had sent the PI 21 overdue project report reminders, which had
          not been responded to, the institution had continued to draw down funds on the award, 5 and the
          PI's academic web site6 appeared significantly out of date. In response to OIG's request for
          information, the Institution acknowledged that the PI had ceased to be a full-time faculty member
          but the Institution continued to draw down funds to support a variety of graduate student
          projects. The NSF award, however, was designed to support the development ofthe PI's career.
          The institution, therefore, terminated the award and returned the funds to NSF that were drawn
          down after the PI had left the full time position to pursue other interests. 7

          This file is closed.




                                             discussed his concerns with OIG.




          7 In total, the' institution returned _    to NSF, and retained _           it felt it expended while the PI was a
          full-time faculty m e m b e r . '                                     .c.




NSF OIG Form 2 (11/02)
